     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




   ANA Facilities at Mazar-e-Sharif and Herat Generally
    Met Construction Requirements, but Contractor
           Oversight Should Be Strengthened




                                         April 25, 2011



SIGAR Audit-11-9 Contract Performance and Oversight/ANA Facilities
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


April 25, 2011

General James N. Mattis
Commander, U. S. Central Command

General David H. Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Mr. Terry Edwards
Director, Air Force Center for Engineering and the Environment

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of U.S. Air Force Center for Engineering and the Environment (AFCEE)
infrastructure projects in Mazar-e-Sharif and Herat. This report includes two recommendations to
AFCEE designed to strengthen contractor oversight and provide timely information to other U.S.
government contracting agencies on contractor performance at Herat.

A summary of this report is on page ii. This performance audit was conducted by SIGAR under the
authority of Public Law No. 110-181, as amended, the Inspector General Act of 1978, and the Inspector
General Reform Act of 2008. When preparing the final report, we considered comments from AFCEE
and the Combined Security Transition Command – Afghanistan (CSTC-A). AFCEE noted that it has taken
action to address our recommendations and CSTC-A concurred with our findings regarding the quality of
construction. These comments are reproduced in appendixes II and III of this report.




Herbert Richardson
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-9 Contract Performance and Oversight/ANA Facilities                               Page i
                                                           SIGAR Audit-11-9                                             April 2011

                  SIGAR                                    ANA Facilities at Mazar-e-Sharif and Herat Generally Met
                                                            Construction Requirements, but Contractor Oversight
                                                                            Should Be Strengthened

What     SIGAR Reviewed
Special Inspector General for Afghanistan Reconstruction
A key objective of the coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by
housing, training, equipping, and sustaining the Afghanistan National Security Forces. The Combined Security Transition
Command –Afghanistan (CSTC-A) provided $42.3 million to the Air Force Center for Engineering and the Environment
(AFCEE) to support construction of facilities for the Afghan National Army (ANA) at Camp Shaheen outside of
Mazar-e-Sharif and at Camp Zafar outside of Herat. AFCEE awarded one task order to CH2M Hill Constructors, Inc.
(CH2M Hill) and one to AMEC Earth and Environmental, Inc. (AMEC) to complete these projects. AFCEE officials (located
in both San Antonio, Texas, and Kabul, Afghanistan) were responsible for providing contract administration and
oversight of construction activities. This report (1) examines modifications to the task orders awarded to CH2M Hill and
AMEC and assesses the nature and adequacy of project oversight by AFCEE; (2) determines whether construction at
Mazar-e-Sharif and Herat met the terms of the task orders; and (3) evaluates efforts to ensure sustainability of the
facilities. To accomplish these objectives, we reviewed relevant contract files; performed site inspections at both
locations; and interviewed officials from CSTC-A and AFCEE, among others. We conducted our work in San Antonio,
Texas; Kabul, Mazar-e-Sharif, and Herat, Afghanistan; and Washington, D.C., from May 2010 to April 2011, in
accordance with generally accepted government auditing standards.

What SIGAR Found
The projects at Mazar-e-Sharif and Herat experienced cost increases and construction delays, and the AFCEE
contracting officer failed to provide adequate oversight of the contractor at Herat. At Mazar-e-Sharif, project costs
increased because of additional work, including an electrical upgrade, added to the contract through modifications. The
project was also delayed, primarily because the contractor had difficulty obtaining generators for this upgrade. At
Herat, the project was delayed because of poor contractor performance, particularly with regard to cost and schedule
management. For example, a December 2009 AFCEE report noted that the project had experienced 75 percent
schedule growth and an estimated cost overrun of $1.68 million. We found that the AFCEE contracting officer did not
exercise adequate oversight of the contractor at Herat. Specifically, he approved over $5 million in funding increases
for the project, despite having identified serious concerns about the contractor’s performance. He also failed to follow
up on his requests to the contractor to take corrective actions and did not provide timely information to other U.S.
government contracting officials on the contractor’s performance through the Construction Contractor Appraisal
Support System (CCASS).
In general, SIGAR found that the quality of construction at both sites met the terms of the contract requirements. For
example, the buildings SIGAR inspected at Herat appeared to have properly applied finishes both on the interior and
exterior, windows and doors were installed and working, and plumbing and electrical systems were operational.
However, SIGAR also identified some minor flaws, such as areas with inadequate grading, which could lead to flooding.
Although AFCEE and CSTC-A have taken steps to provide for the sustainment of the facilities at Mazar-e-Sharif and
Herat, SIGAR found that these efforts did not occur in a timely manner. First, AFCEE did not arrange for the facilities to
be covered under the operations and maintenance (O&M) contract for CSTC-A facilities in Afghanistan in a timely
manner. Second, although CSTC-A updated its “austere” or “Afghan-friendly” construction standards and developed a
mechanism for taking feedback from key stakeholders into account when revising these standards, these updates were
not available to contractors at the time of the Mazar-e-Sharif and Herat projects.

What SIGAR Recommends
SIGAR is making two recommendations to AFCEE to address the following actions: (1) establish and implement
procedures to ensure that contracting officers follow up on contractors’ plans to take corrective action in a timely
manner and (2) file a final rating of the contractor at Herat in CCASS. In commenting on a draft of this report, AFCEE
stated that it will begin setting specific deadlines for stakeholders, including the contracting officer, to follow up when
performance problems are identified. In response to our second recommendation, AFCEE stated that it has now filed a
rating in CCASS on the contractor in Herat. CSTC-A concurred with our findings regarding the quality of construction at
both sites.
                      For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-11-9 Contract Performance and Oversight/ANA Facilities                                                            Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 3
Both Projects Experienced Cost Increases and Schedule Delays, and Contractor
   Oversight at Herat Was Insufficient ....................................................................................................... 5
Facilities at Mazar-e-Sharif and Herat Were Generally Well Constructed ................................................. 13
Efforts to Ensure Sustainability of Mazar-e-Sharif and Herat Facilities Did Not
    Occur in a Timely Manner .................................................................................................................... 16
Conclusion ................................................................................................................................................... 18
Recommendations ...................................................................................................................................... 18
Comments ................................................................................................................................................... 19
Appendix I: Scope and Methodology ......................................................................................................... 20
Appendix II: Comments From Air Force Center for Engineering and the
   Environment ......................................................................................................................................... 21
Appendix III: Comments From Combined Security Transition Command-
   Afghanistan........................................................................................................................................... 23


TABLES

Table 1: Modifications to Contract FA8903-06-D-8510, Task Order 012 ..................................................... 6
Table 2: Modifications to Contract FA8903-06-D-8507, Task Order 013 ..................................................... 9


FIGURES AND PHOTOS

Figure 1: Map of Afghanistan Showing Balkh and Herat Provinces .............................................................. 3
Photo 1: Unfinished K-Span at Herat with No Ceiling Lights, Fans or Interior
   Insulation .............................................................................................................................................. 11
Photo 2: Unfinished Latrine Area in K-Span at Herat ................................................................................. 11
Photo 3: Enlisted Barracks at Mazar-e-Sharif ............................................................................................. 13
Photo 4: Vehicle Maintenance Building at Mazar-e-Sharif ......................................................................... 13
Photo 5: PVC Piping at Sink Level at Mazar-e-Sharif................................................................................... 14
Photo 6: “Goose-Neck” Faucets in a Latrine Area at Mazar-e-Sharif ......................................................... 14
Photo 7: Insubstantial Shower Heads at Mazar-e-Sharif ............................................................................ 14
Photo 8: Forward Support Depot Storage Area at Herat ............................................................................ 15
Photo 9: Problematic Grading next to K-Span 3 ......................................................................................... 16




SIGAR Audit-11-9 Contract Performance and Oversight/ANA Facilities                                                                                    Page iii
ACRONYMS

ACASS                    Architect-Engineer Contract Administration Support System
AFCEE                    Air Force Center for Engineering and the Environment
AMEC                     AMEC Earth and Environmental, Inc.
ANA                      Afghan National Army
ANSF                     Afghanistan National Security Forces
CAP                      Corrective Action Plan
CCASS                    Construction Contractor Appraisal Support System
CH2M Hill                CH2M Hill Constructors, Inc.
CO                       Contracting Officer
COR                      Contracting Officer Representative
CSTC-A                   Combined Security Transition Command - Afghanistan
DFAC                     Dining Facility
FAR                      Federal Acquisition Regulation
GAGAS                    Generally Accepted Government Auditing Standards
HERC                     Heavy Engineering, Repair and Construction
O&M                      Operations and Maintenance
PVC                      polyvinyl chloride
R&R                      revised & resubmitted
RSC-W                    Regional Support Command-West
SIGAR                    Special Inspector General for Afghanistan Reconstruction




SIGAR Audit-11-9 Contract Performance and Oversight/ANA Facilities                   Page iv
       ANA Facilities at Mazar-e-Sharif and Herat Generally Met Construction
         Requirements, but Contractor Oversight Should Be Strengthened


One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own
security by training and equipping the Afghanistan National Security Forces (ANSF).1 In 2001, the Bonn
Agreement initially set troop levels for the Afghan National Army (ANA) at 50,000. New requirements
call for the ANA to grow to approximately 171, 600 by October 2011. As a result of these increases,
additional facilities are needed to train and base the Afghan forces. Between fiscal years 2005 and 2010,
about $25 billion was appropriated for the Afghanistan Security Forces Fund, which provides the funding
to train and equip the ANSF.

In 2008, the Combined Security Transition Command-Afghanistan (CSTC-A)2 funded two projects
through the Air Force Center for Engineering and the Environment (AFCEE) to support construction at
Camp Shaheen outside of Mazar-e-Sharif in Balkh Province and at Camp Zafar outside of Herat city in
Herat Province. AFCEE awarded two cost plus fixed-fee task orders3 in the amount of $42.3 million to
CH2M Hill Constructors, Inc. (CH2M Hill) and AMEC Earth and Environmental, Inc. (AMEC) to complete
projects at Mazar-e-Sharif and Herat, respectively.

This report is part of a series of performance audits by the Special Inspector General for Afghanistan
Reconstruction (SIGAR) examining contract outcomes, costs, and oversight. This report (1) examines
modifications to the task orders awarded to CH2M Hill and AMEC and assesses the nature and adequacy
of project oversight by AFCEE; (2) determines whether construction at Mazar-e-Sharif and Herat met the
terms of the task orders; and (3) evaluates efforts to ensure sustainability of the facilities.

To accomplish these objectives, we reviewed relevant contract files, including the statements of work,
modifications, available construction plans and specifications, and quality assurance plans and reports.
We examined criteria and guidance defined in the Federal Acquisition Regulation (FAR), as well as
AFCEE's final and draft policies. We conducted inspections of the Herat and Mazar-e-Sharif sites in
Herat and Balkh provinces, respectively, and we interviewed officials from AFCEE headquarters in San
Antonio, Texas; AFCEE-Afghanistan; CSTC-A; U.S. Army Corps of Engineer Afghanistan Engineer Districts-
North and South; AMEC; and CH2M Hill. We conducted our work in San Antonio, Texas; Kabul,
Mazar-e-Sharif, and Herat, Afghanistan; and Washington, D.C., from May 2010 to April 2011, in
accordance with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for

1
  ANSF includes the Afghan National Army and the Afghanistan National Police.
2
  The North Atlantic Treaty Organization Training Mission-Afghanistan and CSTC-A are a joint command under a
single commander. Because CSTC-A distributes and manages all U.S.-provided funding to support ANSF, this report
refers to CSTC-A.
3
  A cost plus fixed-fee contract or task order provides for payment of allowable incurred costs to the extent
prescribed in the contract. These contracts establish an estimate of total cost for the purpose of obligating funds
and establishing a ceiling that the contractor may not exceed (except at its own risk) without the approval of the
contracting officer. This contract type also provides for payment to the contractor of a negotiated fee that is fixed
at the inception of the contract and does not vary with actual cost. This contract type permits contracting for
efforts that might otherwise present too great a risk to contractors. See Federal Acquisition Regulation (FAR)
Subpart 16.3.
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                              Page 2
our findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives. A discussion
of our scope and methodology is included in appendix I.


BACKGROUND

The CSTC-A-funded projects in Mazar-e-Sharif and Herat (see figure 1) provided for the construction of
additional facilities at existing ANA bases, including the construction of medical barracks, and, at one
location, a new commando compound. CSTC-A identified a need for these additional facilities based on
the changing missions of the garrisons and contracted through AFCEE for construction and quality
assurance oversight.


Figure 1: Map of Afghanistan Showing Balkh and Herat Provinces




Source: SIGAR

As of October 2010, Camp Shaheen, near Mazar-e-Sharif, had an authorized level of almost
8,000 military personnel. Camp Shaheen is home to the ANA's 209th Corps and houses the 209th Corps'
headquarters, a brigade and its general support unit, and two battalions, including combat support and
combat support services. The purpose of the task order awarded by AFCEE to CH2M Hill was to perform
additional construction at two sites at Camp Shaheen, specifically:




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                   Page 3
        Commando compound – enlisted barracks; non-commissioned officer barracks; officer barracks;
         four company headquarters; a battalion headquarters; a small arms storage building; a battalion
         storage building; fitness and training centers; motor pool with a vehicle maintenance bay; a
         dining facility; a solid waste collection point; a perimeter fence with two lighted entry control
         gates; an indirect fire shelter; an asphalt road and parking areas; storm water management;
         sewer and water distribution; power distribution and generator upgrade; and a communication
         system.
        Forward support depot – enlisted barracks; senior non-commissioned officer/officer barracks;
         two medical barracks; a latrine for each of the barracks; a dining facility; a warehouse with
         vehicle maintenance bay; renovation of another warehouse; fuel point and fuel storage;
         concrete bunkers; asphalt roads; and sewer, water, and electric distribution with connection to
         the existing system.

As of October 2010, Camp Zafar, near Herat, had an authorized level of more than 7,800 military
personnel. Camp Zafar is home to the ANA's 207th Corps and houses the 207th Corps' headquarters, a
brigade and its general support unit, and six battalions, including combat support and combat support
services. AFCEE awarded the task order to AMEC to perform additional construction at three sites at
Camp Zafar, specifically:

        Forward support depot – guard houses and fence; asphalt pavement; enlisted barracks and bath
         house; officer quarters; fuel point, vehicle maintenance, and storage; warehouse renovation;
         water, electrical, and wastewater systems; and concrete bunkers.
        Dining facility and K-span4 area – new asphalt pavement; a dining facilities (DFAC) building;
         K-span facilities; parking and drainage; a wastewater collection system; electrical and water
         distribution; and gravel roadway.
        Medical barracks area – non-commissioned officer barracks; enlisted barracks; a bath house;
         gravel roadway and drainage; a wastewater collection system; and electrical and water
         distribution.

AFCEE Selects Contractors through a Two-Tiered Approach

AFCEE uses a two-tiered approach to select contractors for its construction projects. First, under its
Heavy Engineering, Repair and Construction (HERC) business model, AFCEE solicits bids, selects
contractors, and awards multiple indefinite delivery/indefinite quantity contracts,5 in accordance with
the FAR, to provide heavy construction and engineering activities worldwide. Second, AFCEE
headquarters requests proposals covering potential heavy construction and engineering projects
exclusively from HERC prime contractors. Contractors interested in competing for the work provide
proposals. The AFCEE contracting officer (CO) located in San Antonio, Texas, makes a determination as


4
 A K-span is a pre-engineered building built with roll-formed arched steel structures that weld together in large
sections to form a self-supporting building with no internal structure. A K-span building can be used many ways,
including as a warehouse, hangar, office space, or troop barracks.
5
 Indefinite-delivery indefinite-quantity contracts provide for an indefinite quantity of services during a fixed period
of time. They are used when the government cannot predetermine, above a specified minimum, the precise
quantities of supplies or services that will be required during the contract period. The government places delivery
orders (for supplies) or task orders (for services) against a basic contract for individual requirements. Minimum
and maximum quantity limits are specified in the basic contract as the number of units (for supplies) or as dollar
values (for services).
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                                 Page 4
to which contractor will provide the best value for the dollar, and the selected contractor is awarded the
task order.6

AFCEE Outsources Quality Assurance, but Contracting Officer is Ultimately Responsible for
Contractor Oversight

AFCEE engages engineering contractors to provide quality assurance for its construction projects, but
the AFCEE CO has final responsibility for monitoring contractor performance and holding the contractor
accountable for its actions. The quality assurance contractors perform onsite supervision, inspection,
and oversight for construction throughout Afghanistan to ensure that construction contractors meet
quality control and construction standards. Duties include, but are not limited to, onsite technical
surveillance and project assessment; review and comment on the contractor’s submittals; and
preparation and posting of daily quality assurance reports that document project details, actions taken,
and items inspected, etc. The quality assurance contractor provides documentation of these actions to
the contracting officer representative (COR), who is responsible for evaluating the quality assurance
contractor’s performance and for using the information provided to interact with and advise the CO.
The AFCEE CORs, located in Afghanistan and San Antonio, Texas, also administer the contracts. The
quality assurance function for the projects at Mazar-e-Sharif and Herat was awarded first to Versar, Inc.
and subsequently to Jacobs Engineering Group, Inc., for approximately $38.7 million. Versar continued
to perform the quality assurance function for the project sites at Mazar-e-Sharif and Herat after the
Jacobs Engineering Group, Inc. assumed the role as the primary quality assurance contractor.

The CO approves modifications to the contract and holds the contractor accountable for its
performance. The CO is responsible for filing the contractor’s interim and final performance
evaluations, which provide U.S. agencies with relevant information for selecting contractors. These
evaluations also serve as one of the CO’s primary tools for influencing remedial action by a contractor
during contract performance. According to the FAR, during the contractor’s period of performance, the
CO can request a corrective action plan outlining the contractor’s proposed steps to fix a problem and
prevent it from happening again. The CO should follow up to ensure performance improvement. If the
contractor fails to improve, the CO can provide less-than-satisfactory interim and final contractor
evaluations through the government’s formal reporting system, the Construction Contractor Appraisal
Support System (CCASS) and the Architect-Engineer Contract Administration Support System (ACASS).7


BOTH PROJECTS EXPERIENCED COST INCREASES AND SCHEDULE DELAYS, AND CONTRACTOR
OVERSIGHT AT HERAT WAS INSUFFICIENT

The projects at Mazar-e-Sharif and Herat experienced cost increases and construction delays, and the
AFCEE CO failed to provide adequate oversight of the contractor at Herat. At Mazar-e-Sharif, the cost of
the project increased because of additional work, including a major electrical upgrade, added to the
contract through modifications. Construction at the site was delayed primarily because the contractor

6
 A task order is an order for services placed against an established contract, in this case the HERC contract.
7
 CCASS and ACASS are databases that contain construction contractor and architect-engineer performance
evaluations, respectively. The evaluations provide information on contractor performance, including the quality
and timeliness of the work, effectiveness of management, and compliance with contract terms, labor standards,
and safety requirements. Information from CCASS is passed to the Past Performance Information Retrieval
System, a government-wide performance information repository, where it can be retrieved by federal government
agencies, including DOD, for use in selecting contractors. ACASS provides the same evaluation opportunity for
architect-engineer contracts.
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                         Page 5
had difficulty obtaining two generators called for as part of this utility upgrade. At Herat, the project
experienced substantial cost increases and schedule delays because of poor contractor performance.
We found that the AFCEE contracting officer failed to exercise adequate oversight of the contractor at
Herat. Specifically, he approved multiple cost increases and schedule extensions for the project, despite
having identified significant contractor performance problems. He also failed to follow up on the
contractor’s plans to improve performance and did not report the contractor’s performance deficiencies
in CCASS for timely use by other U.S. contracting agencies.

Mazar-e-Sharif Project Was Behind Schedule Due, in Part, to Difficulties Completing an
Electrical Upgrade at the Site

As of February 2011, the Mazar-e-Sharif facilities were more than 20 months behind schedule, in part
because of utility work added to the contract under a scope modification. In addition, the cost for the
AFCEE-constructed facilities at Mazar-e-Sharif increased from $17.0 million to $23.2 million based on
several modifications to the task order, including the utility work. Table 1 outlines the cost, schedule,
and scope changes for the Mazar-e-Sharif facilities.


Table 1: Modifications to Contract FA8903-06-D-8510, Task Order 012
Modification
             Date            Purpose                                        Cost/Schedule Change
(Mod)

Mod 1         Jan 14, 2009   Capped general and administrative rates        No change

Mod 2         May 14, 2009 Revised building sizes and subcontracted         Contract increased by $1.0 million
                           forward support depot site                       Field construction completion date
                                                                            extended from May 12, 2009 to
                                                                            July 19, 2009

Mod 3         Aug 19, 2009   Required installation of culverts and          Contract increased by $2.2 million
                             control points; modified forward support       Field construction completion date
                             depot warehouse                                extended to September 30, 2009

Mod 4         Sep 19, 2009   Expanded scope to include design,              Cost increased by $3.1 million
                             furnishing, and installation of two            Field construction completion date
                             megawatt power upgrade; design and             extended to June 30, 2010
                             installation of vehicle service pits; and
                             furnishing and installationof two 25,000-
                             gallon diesel fuel tanks to support new
                             generators

Mod 5         Jun 28, 2010   Extended contract due to non-receipt of        No cost increase
                             special order generators                       Field construction completion date
                                                                            extended to August 15, 2010

Mod 6         Aug 10, 2010   Added new U.S. Central Command and             No cost increase
                             Joint Contracting Command contract             No schedule change
                             clauses regarding fitness for duty, facility
                             safety, and business clearances

Mod 7         Sep 14, 2010   Extended contract due to special order         No cost increase
                             generators held in Pakistan                    Field construction completion date
                                                                            extended to November 15, 2010

SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                             Page 6
Modification
             Date                Purpose                                          Cost/Schedule Change
(Mod)

Mod 8           Nov 1, 2010      Extended contract due to special order           No cost increase
                                 generators held in Pakistan                      Field construction completion date
                                                                                  extended to December 15, 2010

Mod 9           Dec 13, 2010     Extended contract due to special order           No cost increase
                                 generators held in Pakistan                      Field construction completion date
                                                                                  extended to March 19, 2011

Source: SIGAR analysis of Contract FA8903-06-D-8510, Task Order 012, dated July 16, 2008, and all task order modifications.
Note: General and administrative rates are for management or financial expenses incurred by or allocated to a business unit
and support the management and administration of the business unit as a whole.

According to the FAR, contract files should include sufficient documentation to provide a complete
history of the project as a basis for making informed decisions, supporting actions taken, and providing
information for reviews and investigations.8 However, the extent to which the modifications shown in
Table 1 were appropriately supported varied. For example, we found that modifications 1, 2, 3, and 6,
which capped general and administrative cost rates, made minor building size changes during initial
design, and added minor alterations to construction plans, were sufficiently supported by
documentation in the contract files. In addition, modifications 5, 7, and 8, which extended the
performance periods, were directly connected to the added utility work and therefore were sufficiently
documented.

However, the extent to which the AFCEE CO obtained adequate documentation supporting the need to
expand the scope of the Mazar-e-Sharif project to include unplanned utility work is unclear. During
contract performance (prior to June 14, 2009), CSTC-A identified a potential problem with the electrical
power available for current and future infrastructure and requested additional capacity at
Mazar-e-Sharif. In response to this request, the AFCEE CO modified the scope of the Mazar-e-Sharif task
order (modification 4, dated September 2009) to upgrade the power plant by two megawatts, increasing
the project’s cost by about $3.1 million. In July 2010, when we asked for documentation supporting the
need to upgrade the power plant, neither CSTC-A nor AFCEE could provide it. In addition, our review of
the contract files found no documentation from CSTC-A supporting the need for modification 4.
However, in February 2011, when we reiterated concerns about the need for documentation supporting
the modification, AFCEE provided a utility assessment of Camp Shaheen completed in July 2009. The
assessment recommended two new generators in the short-term and a total of twelve generators in the
long-term. While this study predates modification 4 (indicating that support for the expansion was
available), the work change request submitted by the contractor to add the utility work at the request of
CSTC-A was issued in June 2009, prior to completion of the study (indicating that the study’s results
were not the basis of the decision to add the utility upgrade). Further, based on a subsequent June 2010
assessment of all utility requirements at Mazar-e-Sharif, CSTC-A concluded that it had overestimated the
power requirements at virtually all bases, including Camp Shaheen. Therefore, the power upgrade
called for under modification 4 will not be needed until the site reaches its full capacity of 12,000 troops.
(According to a CSTC-A official, as of February 2011, there were between 4,000 and 5,000 troops
stationed there.)

As of February 2011, the ANA had assumed occupancy of all facilities at the site, but the project
remained incomplete because of a delay obtaining and installing the generators called for under the
8
See FAR 4.801.
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                                       Page 7
utility upgrade. The contractor experienced significant delays getting the two generators through
Pakistani and Afghan border controls because it had lost its business license in mid-2010. According to
AFCEE, the contractor was unable to renew its license because it owed the Ministry of Finance taxes that
one of its Afghan subcontractors had not paid in previous years. (The Afghan customs office will not
authorize the release of the generators to an unlicensed company.) In February 2011, CSTC-A reported
that the contractor had resolved the problem and that the generators were en route to Camp Shaheen,
after which they would be installed. A CSTC-A official stated that there had been no adverse effect from
the delay because the generators will not be needed until the base gets closer to full capacity. He also
emphasized that importing materials, such as generators, for construction is his “single most difficult
problem” because so little is manufactured in Afghanistan.

Herat Project Was Over Cost and Behind Schedule, Due to Both an Unsupported Scope
Modification and Poor Contractor Performance

As of June 30, 2010, the AFCEE-constructed facilities at Herat were $7.4 million over cost and 9 months
behind schedule, in part because of poor contractor performance. The costs for the Herat facilities
increased from the initial cost of $11.6 million to $19 million based on several modifications to the task
order. The facilities were also originally scheduled for completion by September 15, 2009, but the
scheduled completion date was delayed until June 30, 2010. Table 2 shows the status of the cost,
schedule, and scope changes for the Herat facilities task order.




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                      Page 8
Table 2: Modifications to Contract FA8903-06-D-8507, Task Order 013
Modification     Date           Purpose                                         Cost/Schedule Change

Mod 1            Apr 29, 2009 Revised building areas and heating,               Contract increased by $2.2 million
                              ventilation, and air conditioning
                              requirements

Mod 2            Sep 30, 2009 Revised transformer sizes due to building Contract increased by $3.2 million
                              size changes; expanded scope to include a Completion date extended to
                              hydrological survey and installation of a January 15, 2010
                              water well and treatment facility

Mod 3            Jan 15, 2010 Extended field performance due to                 Field construction completion date
                              construction delays                               extended to June 5, 2010

Mod 4            Apr 19, 2010 Descoped hydrological work                        $1.3 million remaining from descoped
                                                                                hydrological work was left on the
                                                                                contract to offset additional project
                                                                                costs reported by contractor

Mod 5            Jun 16, 2010 Increased contract ceiling; replaced ceiling Contract increased by $2.0 million to
                              fans in K-spans                              cover additional costs reported by
                                                                           contractor
                                                                                Field construction completion date
                                                                                extended to June 30, 2010

Mod 6            Jul 19, 2010   Changed the funding source for                  No change
                                modification 5, per CSTC-A request

Mod 7            Aug 9, 2010    Changed the funding source for                  No change
                                modification 5 back to the original source,
                                again at CSTC-A request

Source: SIGAR analysis of Contract FA8903-06-D-8507, Task Order 013, dated September 12, 2008, and all task order
modifications.

We found that the AFCEE contracting officer expanded the scope of this task order without sufficient
documentation support for this modification. Specifically, modification 2, dated September 2009,
expanded the scope of the project to include conducting a hydrological survey and installing a water
well and treatment facility. CSTC-A requested the modification when water availability for the entire
garrison at Herat became a problem, and the AFCEE CO modified the task order. However, neither
CSTC-A nor AFCEE could provide us with documentation supporting the hydrological upgrade, which
accounted for $2.2 million of the $3.2 million modification.

After we raised questions about how scope changes were supported, CSTC-A initiated a plan to
determine all utility requirements, i.e., water, wastewater, electrical, and drainage, for the twelve ANA
garrison sites, including Herat. In doing so, CSTC-A officials acknowledged that utility assessments could
better support future contracted utility work and would help ensure that these garrisons have proper
power and other utility capacities. They further stated that by analyzing current in-place capacity,
planned construction, population and mission, and other planning factors, the assessments could
identify specific recommendations at each site for changes in the utility construction programs. In
December 2010, CSTC-A engineers reported that assessments had been completed on 9 of the 12 ANA
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                                     Page 9
garrison sites, including Herat. The Herat assessment confirmed that a new well would be needed to
accommodate an anticipated increased demand for water. However, it also found that an upgrade in
treatment facilities would not necessarily be needed, depending on the quality of water produced
through the recommended wells. In April 2010, the hydrology work was descoped because the two
wells the contractor dug after completing the hydrological survey were dry, and CSTC-A did not have
additional funding to drill more wells.

The project at Herat also experienced delays and cost increases because of poor contractor
performance, particularly with regard to cost and schedule management. Initial indications of poor
contractor performance surfaced in both the quality assurance contractor’s correspondence and in-
country COR reports as early as June 2009, only 3 months after surveying and other pre-excavation work
had started. For example, in June 2009, the AFCEE COR sent an email to the contractor, AMEC,
expressing concern that AMEC had completed only about 16 percent of the project and continued to
average only about 1.5 percent progress per week. The COR added that AMEC had had many weeks
with less than 1 percent progress. He estimated that, at current pace, AMEC would not finish until at
least September 2010. In early August 2009, the COR reiterated these concerns directly to the AFCEE
CO. For example, he informed the AFCEE CO that, while bad weather could account for some of the
project’s delays, “all other delays are associated with the contractor’s performance.” On August 21,
2009, the AFCEE CO submitted a letter of concern to AMEC, stating that “AMEC’s project
management…has led to significant project completion delays.” The CO added that AFCEE had
repeatedly raised concerns over this lack of performance and that AMEC had yet to take more than
minimal actions to bring the progress to an acceptable rate.

Reports submitted by the quality assurance contractor, Versar, Inc., indicate that the contractor also
experienced serious difficulties preparing approvable design submittals, leading to delays. For example,
on October 13, 2009, Versar noted an increase in the number of the contractor’s required submittals
that the CO had classified as needing to be “revised and resubmitted” (R&R) or needing more extensive
work . By November 22, 2009, the lack of approved submittals had become a significant problem, with
17 unresolved R&R submittals. Some of these submittals dated back several months. For example, the
contractor’s submitted warehouse renovation designs had been designated as R&R on July 9, 2009, but
remained unresolved at the end of November. Until submittals are approved, the parts of the project
covered under those submittals cannot proceed.

In December 2009, the AFCEE CO again wrote to AMEC expressing concerns that the project was
“significantly behind schedule and over budget.” He noted that, while quality of workmanship remained
high, AMEC’s inability to maintain schedule and budget was a performance deficiency. For example, he
cited a December 9, 2009, AFCEE report, which showed a 75 percent schedule growth and an estimated
cost overrun of $1.68 million. Finally, a performance assessment by the COR found that the contractor’s
adherence to the approved schedules was unsatisfactory, resulting in significant delays in project
completion. For example, the COR recognized a trend —for every month of construction, the schedule
was extended by between 1 and 1 ½ months.

At the end of June 2010, the AFCEE CO, having learned that AMEC had exhausted project funds, directed
the contractor to suspend all work.9 According to a CSTC-A official, CSTC-A was not informed of this
problem early enough to secure additional funding to finance the remaining work. The contractor
acknowledged the order to suspend work and demobilized.



9
    FAR clause 52.232-20 states that a contractor may not incur costs in excess of the estimated costs of the contract.
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                               Page 10
When the contractor demobilized, the medical barracks were complete; the forward support depot, the
dining facility, and two K-spans were largely complete, with the exception of some “punch list” items;
and the third K-span was incomplete. For example, the third K-span had no exterior coating; no ceiling
lights, fans, or interior insulation (Photo 1); and an unfinished latrine area (Photo 2).


Photo 1: Unfinished K-Span at Herat with No              Photo 2: Unfinished Latrine Area in K-Span at
Ceiling Lights, Fans or Interior Insulation              Herat




Source: SIGAR, August 8, 2010.                           Source: SIGAR, August 7, 2010.

AFCEE turned the facilities over “as-is” to CSTC-A either for occupancy by the ANA or to complete the
unfinished facilities. CSTC-A, in turn, transferred the completed medical barracks to the ANA and the
remaining facilities to the engineers at Regional Support Command – West (RSC-W). During July and
early August 2010, the RSC-W engineers addressed the minor deficiencies in the remaining facilities and
turned over all of the facilities to the ANA, except for four—the dining facility and the three K-spans.
The dining facility required additional contractor involvement to install the sinks and test the plumbing
system. In addition, RSC-W awarded a $247,756 contract on November 18, 2010, to a local company to
complete one of the three K-spans. Delayed facility completion set back the release of these facilities
for occupancy and use by the ANA. In December 2010, an official from RSC-W informed us that it was
still in possession of the three K-Spans because of continuing problems with the quality of construction.
For example, RSC-W had found control panels with fuses that had been removed. In February 2011,
CSTC-A and AFCEE officials informed us that the ANA had assumed occupancy of all facilities at Herat.

Despite Contractor Performance Problems at Herat, the Contracting Officer Approved Cost
Increases and Schedule Extensions and Failed to Follow up on Corrective Action Plans or
Report Performance Deficiencies

We found that the AFCEE CO in San Antonio, Texas, did not provide adequate contractor oversight of
AMEC, the contractor at Herat. One of the guiding principles stipulated in the Air Force Acquisition
Regulation Supplement is that contracting officers exercise effective leadership, sound business
judgment, and risk management techniques. However, the AFCEE CO approved multiple cost increases
and schedule extensions for the project at Herat, despite having identified significant concerns about
AMEC’s performance. In addition, the CO failed to follow up on his own requests to the contractor to
detail plans for improving performance and did not report the contractor’s performance deficiencies in
CCASS to other U.S. contracting agencies in a timely manner. For example, the CO requested a
corrective action plan (CAP) from AMEC three times during the course of the project, but we found no
documentation indicating the CO followed up on the corrective actions outlined in the CAPs to ensure
that contractor performance improved. We also found that the CO did not submit an evaluation of
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                   Page 11
AMEC to CCASS, the database used by U.S. contracting officials to assess past performance of
construction contractors.

A detailed chronology of the CO’s funding and schedule decisions, as well as his formal communications
with the contractor, point to a significant lack of proper oversight at Herat.

       August 21, 2009 – November 12, 2009
        As noted above, the AFCEE CO first sent a letter to AMEC on August 21, 2009, expressing
        concern about significant project completion delays and requesting a CAP. Although AMEC
        provided a CAP, we found no correspondence between September 10, 2009 and November 12,
        2009, to indicate that the AFCEE CO followed up on the actions agreed to under this CAP.
        However, on September 30, 2009, the AFCEE CO approved a cost increase in the amount of
        $3.2 million for the hydrology upgrade described earlier in this report. He also extended the
        scheduled field construction completion date to January 15, 2010.

       November 13, 2009 – December 22, 2009
        On November 13, 2009, the COR sent an e-mail to AMEC again indicating concerns about poor
        schedule management. This letter was followed by a December 11, 2009, performance
        deficiency letter sent from the AFCEE CO to AMEC because the project was still significantly
        behind schedule and over budget. The AFCEE CO warned in the letter that delays could force
        AFCEE’s customers to incur unnecessary expenses in order to erect temporary tent cities to
        house soldiers. The letter called for another CAP, which AMEC provided on December 22, 2009.

       December 23, 2009 – April 14, 2010
        We found no correspondence between the AFCEE CO, AMEC, or the COR following up on the
        December 22 CAP. This break in communication regarding performance improvement lasted
        almost 4 months—between December 23, 2009 and April 14, 2010. However, during this time,
        there were indications of continued problems at Herat. For example, on December 30, 2009,
        AMEC submitted a proposal to AFCEE, requesting a 5-month extension and $3.7 million in
        additional funding to complete the project. The proposal indicated that the $3.7 million was
        needed, in large part, to cover the additional expenses associated with the delay, such as the
        costs of private security and rest and recuperation breaks for employees. On January 15, 2010,
        the CO extended the project’s field construction completion date to June 5, 2010.

       April 15, 2010 – June 28, 2010
        On April 15, 2010, the AFCEE CO sent AMEC another performance deficiency letter and
        requested another CAP. We could not find any evidence that the contractor complied with the
        request for the new CAP. On April 19, 2010, the AFCEE CO descoped the hydrological work
        initially called for under modification 2. However, instead of directing AMEC to return the
        $1.3 million in remaining funds, the CO left those funds on the contract to offset the additional
        costs reported by the contractor on December 30. On June 16, 2010, the AFCEE CO increased
        the contract ceiling by another $2 million to cover more of the additional costs reported by
        AMEC at the end of December. He also extended the field construction completion date to
        June 30, 2010. As noted earlier in this report, the AFCEE CO issued a work suspension order to
        the contractor on June 28, 2010.

Both during the project and after ordering the contractor to suspend work, the AFCEE CO failed to
ensure that other contracting officials were made aware of AMEC’s performance at Herat. The FAR

SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                    Page 12
states that interim evaluations shall be prepared to provide current information for source selection
purposes for contracts or orders with a period of performance, including options, exceeding 1 year. The
FAR also requires that past performance evaluations be prepared at the time the work under the
contract or order is completed and that these evaluations be submitted electronically to the Past
Performance Information Retrieval System, which houses CCASS.10 However, we found no interim
evaluations of the contractor. In July 2010, immediately after the contractor demobilized, the COR
submitted a less-than-satisfactory draft CCASS rating on AMEC to the CO, noting that the contractor had
consistently demonstrated unsatisfactory management of materials, submittals, and subcontractors.
However, as of February 2011, HQ AFCEE personnel had still not entered a final performance rating of
the contractor in CCASS, although a draft rating had been provided to AMEC for its review.
Consequently, other U.S. agencies did not have timely access to this contractor’s current performance
information as they made contracting award determinations.


FACILITIES AT MAZAR-E-SHARIF AND HERAT WERE GENERALLY WELL CONSTRUCTED

The AFCEE-built facilities at Mazar-e-Sharif and Herat appeared to meet the overall requirements of the
contract drawings and specifications, but we also identified a few minor design flaws.

Based on the criteria described in the contract’s statement of work and related technical specifications,
we made a site inspection of the commando compound and the forward support depot sites at
Mazar-e-Sharif from July 19-20, 2010, and found that the buildings were generally constructed within
contract specifications. For example, the buildings we inspected had interior finishes, fire alarms,
lighting, and ceiling fans properly installed and appeared to conform to contract requirements. In the
maintenance and warehouse areas, we observed solid construction for upper building levels and
staircases leading to them. Photos 3 and 4 provide examples of completed construction at
Mazar-e-Sharif.


                                                                Photo 4: Vehicle Maintenance Building at
Photo 3: Enlisted Barracks at Mazar-e-Sharif                    Mazar-e-Sharif




Source: SIGAR, July 19, 2010.                                   Source: SIGAR, July 19, 2010.

We also observed, however, some minor design weaknesses. For example, as shown in photo 5 below,
polyvinyl chloride (PVC)11 piping was installed in the latrine and shower areas at sink level, within human

10
     FAR Subpart 42.15.
11
     PVC is a plastic material widely used in construction because it is inexpensive, durable, and easy to assemble.
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                                Page 13
reach. This use of PVC piping, rather than a stronger material such as galvanized piping, could cause
maintenance issues with wear and tear.


Photo 5: PVC Piping at Sink Level at Mazar-e-Sharif




Source: SIGAR, July 20, 2010.

In addition, we found that “goose-neck” faucets were installed throughout the latrines and dining
facilities and that insubstantial shower heads were used in the shower buildings. These plumbing
fixtures will be more difficult to maintain long-term due to the heavy use they will receive. Photo 6
shows goose-neck faucets in the latrine area; photo 7 shows insubstantial shower heads in the
commando compound shower area. AFCEE officials we met with confirmed that “goose-neck” faucets
are not sufficiently sturdy for the facilities in Afghanistan. CSTC-A has since updated its design
specifications to call for the use of more durable low profile metal valves, rather than “goose-neck”
faucets.


Photo 6: “Goose-Neck” Faucets in a Latrine Area          Photo 7: Insubstantial Shower Heads at
at Mazar-e-Sharif                                        Mazar-e-Sharif




Source: SIGAR, July 19, 2010.                            Source: SIGAR, July 19, 2010.




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                   Page 14
At the time of our site inspection, the ANA had occupied most of the newly constructed buildings, and
these facilities appeared in good condition with only minimal signs of daily use. The ANA was also in the
process of assuming occupancy of the other buildings constructed under the contract.

Although most of the facilities at Herat were not sufficiently complete to pass final inspection when we
conducted our site visits, the construction that had been completed appeared to meet overall
requirements, with a few minor construction issues. We made a visual inspection of the site from June
26 – 28, 2010, and again from August 7 – 8, 2010. At the time of our June visit, the medical barracks was
the only facility that was sufficiently complete to pass final inspection. For example, at the warehouse
building, we observed unfinished wiring and doors that were not squared and therefore did not work.
However, for the most part, the facilities we inspected in August appeared to be well-constructed.

Based on the criteria described in the contract’s statement of work and related technical specifications,
we found that the buildings were generally constructed within contract specifications. For example, the
buildings we inspected appeared to have properly applied finishes both on the interior and exterior,
windows and doors were installed and working, and plumbing and electrical systems were operational.
Photo 8 provides an example of completed construction at Herat. This photo shows that the concrete
floor slabs in the forward support depot storage area appeared to be well-finished and sealed with an
epoxy coating, as evidenced by the light reflection.


Photo 8: Forward Support Depot Storage Area at
Herat




Source: SIGAR, August 8, 2010

During our inspections, we also identified some minor deficiencies. For example, while the grading of
the site appeared generally adequate, we identified areas where drainage problems may occur, such as
on the uphill end of one of the K-spans. As shown in photo 9 below, this area has a significant
embankment that was excavated to accommodate the building. Any runoff from the embankment will
drain toward the building, causing pooling and potential flooding.




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                   Page 15
Photo 9: Problematic Grading next to K-Span 3




Source: SIGAR August 4 – 7, 2010




EFFORTS TO ENSURE SUSTAINABILITY OF MAZAR-E-SHARIF AND HERAT FACILITIES DID NOT
OCCUR IN A TIMELY MANNER

Although AFCEE and CSTC-A have taken steps to provide for the sustainment of the facilities at
Mazar-e-Sharif and Herat, these efforts did not occur in a timely manner. First, AFCEE did not arrange
for the facilities at Mazar-e-Sharif and Herat to be covered under the operations and maintenance
(O&M) contract for CSTC-A funded facilities in Afghanistan in a timely manner. Coverage under this
contract is important in the short term for ensuring that the facilities will be repaired should damage
occur. Second, although CSTC-A updated its “austere” or “Afghan-friendly” construction standards and
developed a mechanism for taking feedback from key stakeholders into account when revising these
standards, these updates were not available to contractors at the time of the Mazar-e-Sharif and Herat
projects. These updated standards should help transition responsibility for maintenance of these
facilities to the Afghan government in the long term.

Facilities at Mazar-e-Sharif and Herat Were Not Added to the O&M Contract in a Timely
Manner

AFCEE did not arrange for the facilities at Mazar-e-Sharif and Herat to be added to the O&M contract for
CSTC-A funded facilities in Afghanistan in a timely manner.12 According to CSTC-A policy, a meeting to,
among other things, coordinate O&M coverage is required when construction is 80 percent complete.
In addition, O&M contracting officials told us that they typically need 90 days to modify the O&M
contract to add completed facilities to it. However, at Mazar-e-Sharif, AFCEE held turnover meetings
about 3 months after reaching the 80-percent complete milestone and less than 60 days before
turnover. At Herat, AFCEE held meetings about 1 month after reaching the 80-percent milestone.
Consequently, there were delays in O&M coverage for the facilities. For example, the commando
12
  The U.S. Army Corps of Engineers awarded two new O&M contracts for ANSF facilities in July 2010 to cover
facilities in northern and southern Afghanistan for $450 million and $350 million, respectively. These indefinite
delivery/indefinite quantity contracts have task orders for O&M activities written against the contracts for specific
locations.
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                              Page 16
compound facilities at Mazar-e-Sharif were occupied in April 2010 but were not covered under the O&M
contract until July 1, 2010, and the forward support depot area at Mazar-e-Sharif was completed in June
2010 but not covered until July 1, 2010. In addition, although a modification to the O&M contract was
initiated to provide coverage for the Herat facilities on August 1, 2010, the modification was not signed
until August 27, 2010, after all but four of the facilities had been completed and turned over to the ANA.

These delays exposed AFCEE to unnecessary liability because any damage to the facilities would not
have been covered under construction contractor warranty. Such damage would have required local or
regional contracting centers or other organizations to fund contracts to repair the damage, thereby
increasing costs to the U.S. government.

In August 2010, we raised concerns about timely O&M coverage with both CSTC-A and AFCEE officials.
In January 2011, AFCEE updated its procedures to provide for O&M coverage in order to ensure that
maintenance and sustainment is provided to newly constructed facilities upon project completion and
that there is a smooth coordinated transition between the contractor, AFCEE, and project stakeholders.
According to a CSTC-A official, the O&M process has been working more effectively since AFCEE updated
its procedures. For example, he stated that in his weekly construction meetings with O&M managers
from U.S. Army Corps of Engineers Afghanistan Engineer Districts – North and South the managers have
reported seeing an improvement in the facilitation of O&M coverage.

CSTC-A Updated Afghan-Friendly Construction Standards, but New Standards Were Not
Available for the Mazar-e-Sharif and Herat Projects

A key development that will influence the Afghan government’s ability to sustain U.S.-funded facilities
without U.S. assistance is the CSTC-A move toward “austere,” or “Afghan-friendly,” construction
standards for ANSF facilities. Although U.S. officials have stated that the government of Afghanistan
does not currently have the financial or technical capacity to sustain ANSF facilities once they are
completed, CSTC-A has plans to transfer all O&M maintenance responsibility for these facilities to the
Afghan government by 2013. In an August 2009 memorandum, CSTC-A identified specific construction
specifications, such as the use of plain concrete floors instead of tiled floors, which would better meet
the needs of the ANSF and minimize the level of damage likely to occur at these facilities. According to
CSTC-A, these standards were an attempt to provide uniform guidance to help ensure the long-term
sustainability of U.S.-funded construction in Afghanistan. During a previous audit,13 we found that CSTC-
A’s guidance on these austere standards could be improved, and we recommended a one-time update
to the memorandum.

On February 3, 2011, CSTC-A issued an updated memorandum on “austere” construction specifications.
CSTC-A officials explained that developing construction standards for use by the ANSF has been a
learning experience regarding cultural differences, and that the changes to the standards reflect the
results of that experience. For example, the standards have been updated to eliminate the use of
“goose-neck” faucets would break easily because, as CSTC-A learned, they were often mistaken for
water pumps. Similarly, the standards have been revised to eliminate the use of pedestal sinks to
accommodate cultural practices regarding the washing of feet. Now, the standards call for trough-type
concrete sinks directly to the floor and capable of supporting a person’s weight.

In this audit, we also found that CSTC-A, using feedback from the O&M contractors, the ANSF (the
facility end-users), and construction companies, could leverage lessons learned to identify and

13
  SIGAR Audit 10-12, ANP Compound at Kandahar Generally Met Contract Terms but Has Project Planning, Oversight, and
Sustainability Issues, July 22, 2010.

SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                                Page 17
implement austere standards on a more routine basis. When we performed site inspections, we
discussed construction specifications with O&M contract personnel, O&M contractor oversight
personnel, and AFCEE personnel. These individuals suggested many improvements regarding design
specifications. For example, they suggested that CSTC-A require using externally mounted, short shower
heads instead of flexible-neck systems that are less durable and require using locally available plumbing
fixtures. At the time, they had no process for providing these suggestions to CSTC-A for vetting,
approval, and distribution.

In August 2010, SIGAR auditors raised this issue with CSTC-A, and CSTC-A has since instituted a
mechanism incorporating feedback and updating the standards. Specifically, in its February 3, 2011,
memo, CSTC-A wrote that the construction standards for Afghanistan Security Forces Fund projects will
be formally reviewed and updated every 6 months and that “everyone is encouraged to submit
recommendations and lessons learned…as often as is needed.” These updated standards (and the new
process for reviewing them on a regular basis) should help communicate consistent design
specifications, minimize O&M training requirements, better use funds for sustainable construction, and
decrease long-term maintenance costs.


CONCLUSION

As the U.S. military transfers responsibility to the ANA to provide for its own security, the importance of
having well-constructed and sustainable facilities available for these forces increases. The U.S.
government has an interest in ensuring that the funds used to pay for these facilities are used for their
intended purpose. However, our review shows that at Herat, the AFCEE CO approved more than
$5 million in funding increases for the project and several schedule extensions, even though he was
aware that the contractor had significant difficulty staying within budget and maintaining a schedule. At
best, this suggests that the CO did not exercise proper due diligence in his oversight of the contractor.
Without concrete steps in place to strengthen contractor oversight and provide timely contactor
performance information to other contracting agencies, other ANA facilities under similar contracting
arrangements may be at risk.


RECOMMENDATIONS

To strengthen contractor oversight and ensure that other U.S. contracting agencies have accurate
information on contractor performance, SIGAR is making two recommendations to the Director of
AFCEE, specifically:

    1. establish and implement procedures (including specific deadlines) to ensure that contracting
       officers follow up on contractors’ corrective action plans in a timely manner; and
    2. take immediate action to finalize the performance rating of AMEC, the prime contractor at
       Camp Zafar, and add this rating to CCASS.




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                    Page 18
COMMENTS

AFCEE and CSTC-A provided comments on a draft of this report, which are included in appendixes II and
III, respectively. In response to our first recommendation, AFCEE stated that, although it has an
established and effective practice of communicating performance issues with contractors, the CO will
begin including a follow up suspense date (or specific deadline) in the performance deficiency
letter/corrective action plan process. According to AFCEE, by documenting that date in performance
deficiency letters, all stakeholders (including the CO, COR, and contractors) will be informed and take
the required actions. We believe that instituting this practice is an improvement and suggest that AFCEE
monitor its use to determine if it is a sufficient procedure for ensuring that contracting officers conduct
timely follow up. In response to our second recommendation, AFCEE commented that it has now
prepared and submitted the rating to CCASS for AMEC’s performance on the ANA garrison facilities at
Herat. AFCEE also stated that due to an error within CCASS, the rating was accepted as an interim,
rather than a final rating. AFCEE has requested that this error be corrected. CSTC-A commented that it
concurred with our finding that the quality of construction at both Mazar-e-Sharif and Herat met
contract requirements.




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                    Page 19
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of two construction task orders funded by the Combined Security
Transition Command-Afghanistan (CSTC-A) and implemented by the Air Force Center for Engineering
and the Environment (AFCEE) to complete projects to provide additional medical and forward support
facilities at the Afghan National Army (ANA) garrisons in Mazar-e-Sharif and Herat provinces. This report
(1) examines modifications to the task orders awarded to CH2M Hill Constructors, Inc. (CH2M Hill) and
AMEC Earth and Environmental, Inc. (AMEC), the prime construction contractors, and assesses the
nature and adequacy of project oversight by AFCEE; (2) determines whether construction at
Mazar-e-Sharif and Herat met the terms of the task orders; and (3) evaluates efforts to ensure
sustainability of the facilities.

To examine whether contract modifications and construction at the two sites met the terms of the task
orders, SIGAR met with officials from AFCEE (based in San Antonio, Texas), AFCEE-Afghanistan, CSTC-A,
CH2M Hill and AMEC, and the quality assurance contractor (Versar, Inc.). We reviewed the contract
documentation, including statements of work, modifications, email documents, and contract officer
correspondence. We conducted site inspections of both locations between June 27, 2010, and August 8,
2010. In addition, former Inspector General Arnold Fields conducted a site inspection of the
Mazar-e-Sharif facilities in September 2010. During our site visits, we inspected the interior and exterior
of all buildings, as well as the grounds within the perimeter of the construction sites as outlined in the
contract and supporting documents. Site inspections were documented with still photography. We did
not use computer-processed data to determine the construction status; however, we relied extensively
on documentation available on the prime and quality assurance contractor Web sites (designed and
provided in accordance with AFCEE contracts). We also reviewed electronic files and correspondence
from AFCEE-Afghanistan and CSTC-A.

To assess project oversight, we met with officials from AFCEE, AFCEE-Afghanistan, Versar, Inc., and
CSTC-A. We reviewed criteria and guidance in the Federal Acquisition Regulation, the quality assurance
reports, and AFCEE guidance for construction to determine if the contracting process and oversight of
the contracts met AFCEE regulations and contract requirements. Additionally, we reviewed AFCEE
guidance to determine the roles and responsibilities for AFCEE and AFCEE-Afghanistan personnel.

To evaluate efforts to sustain constructed facilities, we held discussions with officials from AFCEE-
Afghanistan, CSTC-A, CH2M Hill, and AMEC. During site visits, we also met with officials from the
operations and maintenance contractor, Afghanistan Engineer District-South, and Regional Support
Command-North and -West. We also reviewed austere standards documentation and other CSTC-A,
Afghanistan Engineer District-North, and Afghanistan Engineer District - South guidance on Afghan-
friendly construction.

We conducted work in San Antonio, Texas; Kabul, Mazar-e-Sharif, and Herat, Afghanistan; and
Washington, D.C., from May 2010 to April 2011, in accordance with generally accepted government
auditing standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. This audit was also conducted under the authority of Public
Law 110-181, as amended, the Inspector General Act of 1978, and the Inspector General Reform Act of
2008.



SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                                    Page 20
APPENDIX II: COMMENTS FROM AIR FORCE CENTER FOR ENGINEERING AND THE
ENVIRONMENT




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities       Page 21
SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities   Page 22
APPENDIX III: COMMENTS FROM COMBINED SECURITY TRANSITION COMMAND-
AFGHANISTAN




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities     Page 23
                  (This report was conducted under the audit project code SIGAR-025A).




SIGAR Audit-9 Contract Performance and Oversight/ANA Facilities                          Page 24
SIGAR’s Mission                     The mission of the Special Inspector General for Afghanistan
                                    Reconstruction (SIGAR) is to enhance oversight of programs for
                                    the reconstruction of Afghanistan by conducting independent
                                    and objective audits, inspections, and investigations on the use
                                    of taxpayer dollars and related funds. SIGAR works to provide
                                    accurate and balanced information, evaluations, analysis, and
                                    recommendations to help the U.S. Congress, U.S. agencies, and
                                    other decision-makers to make informed oversight, policy, and
                                    funding decisions to:

                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR Reports   To obtain copies of SIGAR documents at no cost, go to SIGAR’s
and Testimonies                     Web site (www.sigar.mil). SIGAR posts all released reports,
                                    testimonies, and correspondence on its Web site.

To Report Fraud, Waste, and         To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan                allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs             reprisal contact SIGAR’s hotline:

                                           Web: www.sigar.mil/fraud
                                           Email: hotline@sigar.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan 318-237-2575
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-604-0983

Public Affairs                      Public Affairs Officer

                                           Phone: 703-602-8742
                                           Email: PublicAffairs@sigar.mil
                                           Mail: SIGAR Public Affairs
                                            400 Army Navy Drive
                                            Arlington, VA 22202
